CERTIFICATE OF SERVICE
NO. TBD
Danyelle Bennett
Petitioner,
v.
The Metropolitan Government of Nashville and Davidson County, Tennessee
Petitioner.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the
DANYELLE BENNETT PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct copies
of the same by USPS Priority mail, postage prepaid for deliveryto the following address.
Allison Bussell
Department of Law
Metropolitan Courthouse, Suite 108
P.O. Box 196300
Nashville, TN 37219-6300
(615) 862-6361
allison.bussell@nashville.gov
Counsel for The Metropolitan Government of
Nashville and Davidson County, Tennessee

Lucas DeDeus

February 1, 2021
SCP Tracking: Crain-5214 Maryland Way, Ste 402-Cover White

